WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-8303

‘Dong Sheng Huang \Jalea Joechelle Hill, et al
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO I am filing this waiver on behalf of all respondents.

© l only represent some respondents. | am filing this waiver on behalf of the following respondent(s):

[Prestna Balvantin

Please check the appropriate box:

© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO 1 am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543),

    

 

Signature: ( : |
Date: 6/30/21 |

(ype or print) Name |angela Olalde

O wr. Om. © Mz. O Miss

Firm \Greer, Herz & Adams LLP a ——— od |
Address (2625 South Shore Bvd., Ste. 208, i
City & State [League City, Texas : - | zip 77873 - a
Phone 409-797-3262 Email jaolalde@greerherz.com ~_—_ iil

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Dong Sheng Huang
cc:
